PROOF OF SERVICE
I, ALBERTO SOLAR-SOMOHANO do swear or
declare that on this date Sept. 3rd, 2021 as required by
Supreme Court Rule 291 have served the enclosed on each
party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing
an envelope containing the above documents in the United
States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days*.—
/ALBERTO SOLAR-SOMOHANO/
Respondent/Appellee
United States
Director USPTO
/s/ Thomas L. Casagrande
THOMAS L. CASAGRANDE
Associate Solicitor
Mail Stop 8, P.O. Box 1450
Alexandria, Virginia 22313-1450
571-272-9035

